                                                    U.S. Department of Justice


                                                    United States Attorney
                                                    Eastern District of Wisconsin

                                                    517 East Wisconsin Avenue              414 / 297-1700

                                                    Milwaukee, WI 53202                TTY 414 / 297-1088
                                                    January 13, 2005

NEWS SUMMARY:                 Three bid-rigging defendants sentenced


       On January 13, 2005, the United States Attorney’s Office for the Eastern District of
Wisconsin announced that United States District Judge William Griesbach had sentenced the
following defendants for their roles in a conspiracy to rig over 75 bids for federally- and state-
funded construction projects awarded by the Wisconsin Department of Transportation (WisDOT)
and other entities: (1) Streu Construction Company; (2) Ernest J. Streu – the former
President of Streu Construction; and (3) John Streu – the former Secretary/Treasurer of Streu
Construction.

        United States District Judge Griesbach sentenced Ernest Streu to 12 months’ and 1 day
imprisonment and sentenced John Streu to 5 months’ imprisonment and 5 months’ home
confinement with electronic monitoring for their roles in the conspiracy, which began before
1999 and continued until January 13, 2004, when these individuals – as well as James and
Michael Maples of Vinton Construction Company – were arrested on federal criminal
complaints. Judge Griesbach also ordered Ernest and John Streu to spend 1 year on supervised
release following their prison terms, and Streu Construction was placed on probation for 5 years.

        Judge Griesbach also ordered the Streu defendants to pay $500,000 in restitution to
WisDOT and to pay an additional $600,000 in fines. The United States had alleged – and Judge
Griesbach agreed – that $500,000 was a reasonable estimate of the amount of overcharges
suffered by WisDOT as a result of contracts awarded to Streu Construction during the course of
the bid-rigging conspiracy.

        In March 2004, a federal grand jury had indicted the Sreu defendants, Vinton
Construction, James Maples, and Michael Maples on one count of conspiring to rig bids in
violation of the Sherman Act, 15 U.S.C. § 1. In September 2004, each of the defendants entered
a guilty plea to the indictment. As part of their plea agreements, the Streu defendants
acknowledged that during the course of the charged conspiracy, the firm had received over $32.9
million in contracts that had been the subject of illegal discussions with its competitors.

         James Maples, Michael Maples, and Vinton Construction are scheduled to be sentenced
on February 4, 2005. As part of their plea agreements, the Maples/Vinton defendants have
acknowledged that Vinton Construction had received approximately $30 million in contracts that
had been the subject of the conspiracy. As part of their plea agreements, the Vinton/Maples
defendants also have agreed to recommend that they be ordered to pay a total of $1,400,000 in
restitution and an additional $600,000 in fines.
Page 2



       This case was investigated by the Federal Bureau of Investigation and the United States
Department of Transportation – Office of Inspector General. The case was assigned to Assistant
United States Attorneys Richard G. Frohling and Matthew L. Jacobs and Trial Attorneys Diane
Lotko-Baker and Andrew Rosa of the Antitrust Division for prosecution.



                                 #      #     #        #    #




For more information contact:
Assistant United States Attorney Richard G. Frohling
Public Affairs Liaison Francia Wendelborn
414-297-1700
